   October 30, 2003




Acquisition




Contracts for Professional,
Administrative, and
Management Support Services
(D-2004-015)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

COR                   Contracting Officer’s Representative
CPFF                  Cost-Plus-Fixed-Fee
FAR                   Federal Acquisition Regulation
GAO                   General Accounting Office
IGCE                  Independent Government Cost Estimate
PNM                   Price Negotiation Memorandum
T&M                   Time-and-Materials
TINA                  Truth in Negotiations Act
          Office of the Inspector General of the Department of Defense
Report No. D-2004-015                                                    October 30, 2003
   (Project No. D2002CF-0216)

                Contracts for Professional, Administrative, and
                       Management Support Services

                                  Executive Summary

Who Should Read This Report and Why? DoD contracting officials, program
managers, and Military personnel involved in contract award and administration should
read this report. The report discusses recurring problems initially identified in Inspector
General of the Department of Defense Report No. D-2000-100, “Contracts for
Professional, Administrative, and Management Support Services,” March 10, 2000. We
reexamined the area as a result of an increase in expenditures for services. This report
stresses a need for defining performance requirements, supporting price reasonableness
decisions, and monitoring cost contracts for Professional, Administrative, and
Management Support Services.

Background. From FY 1992 through FY 2002, DoD spent more money on contracts for
Professional, Administrative, and Management Support Services than for any other
category of services, with the exception of research and development services.
Procurement of Professional, Administrative, and Management Support Services rose in
cost from $6.7 billion to $14.4 billion, an increase of 115 percent. This report evaluates
the steps in the contracting process for services to determine if the Government receives
the best value in cost and contractor performance.

Results. Problems continue to exist in the award and administration of contracts for
Professional, Administrative, and Management Support Services. Contracting officials
continue to award and administer contracts for services without following prescribed
procedures. Our review included 113 contract actions with an estimated value of
$17.8 billion. Of the 113 contract actions reviewed, 98 had one or more problems with
either nonuse of historical information for defining requirements, inadequate competition
or questionable sole-source awards, inadequate basis for price reasonableness
determinations, inadequate contract surveillance, or noncompliance with Truth in
Negotiations Act procedures. As a result, contractors continued to receive noncompetitive
contract awards to perform the same services they have provided for years. The
Government often guarantees a profit by paying contractors on a cost reimbursable basis
without adequately determining whether prices are reasonable or whether contractors
efficiently perform the contracted tasks. The Under Secretary of Defense for Acquisition,
Technology, and Logistics needs to monitor the establishment and use of centers of
excellence in service contracting as required by the National Defense Authorization Act
for FY 2001 and make sure that program office personnel are trained on the use of
performance-based contracting methods used in service contracts. The Under Secretary of
Defense for Acquisition, Technology, and Logistics also needs to ensure that contracting
officers designate in writing any personnel who perform surveillance on cost reimbursable
and time-and-materials service contracts and ensure that surveillance personnel are
properly trained. The Military Departments and the Defense Microelectronics Activity
need to make program and contracting offices aware of the recurrent problems found in the
development of price negotiation memorandums, technical evaluations, and independent
Government cost estimates and implement an enforcement program to ensure that these
problems do not reoccur. (See the Finding section of the report for the detailed
recommendations.)

We also reviewed the management control program as it related to the award and
administration of contracts for Professional, Administrative, and Management Support
Services. We identified a material management control weakness for the Military
Departments and the Defense Microelectronics Activity. Military Departments and the
Defense Microelectronics Activity management controls were inadequate to ensure that
requirements for contracts were defined and price reasonableness determinations were
sufficiently supported. Also, controls were not in place that would ensure adequate
surveillance was performed on contracts, particularly cost reimbursable and
time-and-materials type contracts.

Management Comments and Audit Response. The Under Secretary of Defense for
Acquisition, Technology, and Logistics, the Army, the Navy, the Air Force, and the
Defense Microelectronics Activity generally concurred with the recommendations. The
Under Secretary nonconcurred with requiring that follow-on cost reimbursable and time-
and-materials service contracts be approved at a level above the contracting officer to
ensure efforts are being made to award fixed-price contracts. Our audit showed that
contracting officers disregarded historical information, the basic consideration for fixed
price contracts. Specifically, contracting officers disregarded historical information in
69 percent of the instances we reviewed where the information was available to support
fixed-price contracts. As a result, we are advocating that another level review the decision.
The Under Secretary concurred with requiring that contracting officers designate in writing
any personnel who perform Government surveillance on cost reimbursable and time-and-
materials contracts and include a list of duties and limitations. The Director, Defense
Procurement and Acquisition Policy, responding for the Under Secretary, stated that
guidance would be issued concerning designation of surveillance personnel according to
the Defense Federal Acquisition Regulation Supplement. However, we ask that the Under
Secretary clarify his position because the Defense Federal Acquisition Regulation
Supplement does not make the written designation of surveillance personnel a requirement.

The Army, the Navy, the Air Force, and the Defense Microelectronics Activity concurred
with placing greater emphasis on defining requirements and the use of fixed-price
contracts, especially where contracts are follow-on contracts. However, we request that
they provide specific actions with implementation dates on how they will place greater
emphasis on fixed-price contracts. The Defense Microelectronics Activity nonconcurred
with developing and employing adequate management controls that will ensure that
service contracts are properly awarded and administered. The Defense Microelectronics
Activity believed the procurement contracting officer, administrative contracting officer,
and project engineer serve as a team in the oversight of their assigned contracts. We
believe the administrative contracting officers have no control over the award of service
contracts and that the contracting activity can develop controls to document the delegation
of administrative controls to administrative activities.

We request that the Under Secretary of Defense for Acquisition, Technology, and
Logistics, and the acquisition executives for the Army, the Navy, and the Air Force, and
the Director, Defense Microelectronics Activity provide comments on the final report by
December 29, 2003. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.

                                             ii
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Objectives                                                                   3

Finding
     Continuation of Problems in the Award and Administration of Service
        Contracts                                                            4

Appendixes
     A. Scope and Methodology                                                26
          Management Control Program Review                                  27
     B. Prior Coverage                                                       29
     C Summary of Problems                                                   31
     D. Status of Inspector General of the Department of Defense
          Report No. D-2000-100 Recommendations                              35
     E. Summary of Recent Legal and DoD Guidance on Service Contracts        39
     F. Report Distribution                                                  43

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   45
     Department of the Army                                                  48
     Department of the Navy                                                  51
     Department of the Air Force                                             54
     Defense Microelectronics Activity                                       56
Background
    Office of Federal Procurement Policy Letter No. 93-1, “Management Oversight of
    Service Contracting,” May 18, 1994, encourages Inspectors General to conduct
    vulnerability assessments of service contracting. This report represents the
    second DoD audit of professional, administrative, and management support
    service contracts that continue to grow in both dollar amount and in significance
    for DoD readiness.

    Prior Audit Report. Inspector General of the Department of Defense (IG DoD)
    Report No. D-2000-100, “Contracts for Professional, Administrative, and
    Management Support Services,” March 10, 2000 (Report No. D-2000-100),
    identifies substantial growth in DoD procurement of services. The audit reviewed
    105 contract actions, valued at $6.6 billion, dated from 1997 through 1998 and
    revealed that numerous problems with contracts for Professional, Administrative,
    and Management Support Services exist. Specifically, contracting officials did
    not sufficiently define requirements using historical data and did not prepare
    adequate independent Government cost estimates (IGCEs). In addition,
    contracting officials failed to adequately compete contract actions and, in some
    cases, did not appropriately award multiple-award contracts. Contract files also
    contained cursory technical reviews as well as inadequate price negotiation
    memorandums (PNMs). Further, several cases of inadequate contract
    surveillance and lack of cost control were present. See Appendix D for a
    discussion of the status of recommendations from Report No. D-2000-100.

    Service Contract Trends. Washington Headquarters Service records indicate
    that from FY 1992 through FY 2002, the cost of DoD procurement of goods and
    services increased from $121.4 billion to $170.8 billion, an increase of 41 percent.
    However, the cost of procurement of services alone increased from $61.7 billion
    to $92.9 billion, an increase of 51 percent. In FY 2002, 54 percent of DoD
    spending for goods and services was spent on service contracts.

    The types of services DoD procures are categorized into 24 Service Categories.
    With the exception of research and development services, DoD spent more money
    from FY 1992 through FY 2002 on contracts for the Professional, Administrative,
    and Management Support Services category of service contracts (Service
    Category Code-R) than for any other category of services. The following figure
    shows annual DoD expenditures for Professional, Administrative, and
    Management Support Services from FY 1992 through FY 2002, which rose from
    $6.7 billion to $14.4 billion—an increase of 115 percent.




                                         1
    Procurement Costs
                        14                 115 Percent Increase
                        12
                        10
        (Billions)

                         8
                         6
                         4
                         2
                         0
                             1992   1993   1994   1995   1996   1997   1998   1999   2000   2001   2002

Professional, Administrative, and Management Support Services

Contracting for Services. The contracting process for services involves many
steps that ensure the Government receives the best value in cost and contractor
performance. Those steps include selecting a contract type, performing market
research, determining that proposed prices are fair and reasonable, and planning
measures that will ensure the contractor performs efficiently.
        Fixed-Price Versus Cost Reimbursable Contracts. The Federal
Acquisition Regulation (FAR) 16.202 states that when the contracting officer can
establish fair and reasonable prices at the outset, a fixed-price contract is suitable
for acquiring commercial items or other supplies or services on the basis of
reasonably definite functional or detailed specifications. The use of fixed-price
contracts imposes a minimum administrative burden on the contracting parties.
FAR 16.301 states that a cost reimbursable contract is suitable only when the
uncertainties involved in contract performance are of such a magnitude that the
cost or performance cannot be estimated with sufficient accuracy for permitting
use of any type of fixed-price contract. Cost reimbursable contracts provide for
payment of allowable incurred costs, to the extent prescribed in the contract. A
cost reimbursable contract may be used only when appropriate Government
surveillance during contract performance provides reasonable assurance that
efficient methods and effective cost controls are used.
FAR 16.601 states that a time-and-materials (T&M) contract may only be used
when it is not possible to estimate the extent or duration of the work or anticipate
costs with any reasonable degree of confidence at the time of placing the contract.
A T&M contract may be used only after the contracting officer executes a
determination and findings that no other contract type is suitable. Because it does
not encourage effective cost control, a T&M contract requires appropriate
surveillance.
        Market Research. According to the FAR, contracts should generally be
awarded using full-and-open competition. Agencies must conduct market
research before developing new requirements documents for acquisitions and
determine through use of the results of the market research if sources capable of
satisfying the requirements exist. If a contract is awarded on a sole-source basis,
a sole-source justification will include an account of the market research
conducted.


                                                         2
           Price Reasonableness Determination. The FAR requires that
    contracting officers purchase at fair and reasonable prices supplies and services
    from responsible sources. The tools used for determining the price
    reasonableness of a service contract include IGCEs, technical evaluations of labor
    hours and labor mix, and PNMs.

            Efficient Operations. The contract type directly affects the incentives for
    efficiency of contractor operations. The FAR states that a firm-fixed-price
    contract provides maximum incentive for the contractor to control costs and
    perform effectively. Contracts that contain incentive provisions also encourage
    the contractor to control costs and improve performance by relating the amount of
    profit or fee payable under the contract to the contractor’s performance. A
    cost reimbursable contract may be used only when Government surveillance
    during performance of the contract can provide reasonable assurance that efficient
    methods and effective cost controls are used. Likewise, a T&M contract provides
    no positive profit incentive to the contractor for cost control or labor efficiency.
    To give reasonable assurance that efficient methods and effective cost controls
    are used, close Government surveillance of contractor performance is therefore
    required for cost reimbursable and T&M contracts.

            Other Requirements. Contracts that exceed $550,000 may be subject to
    the Truth in Negotiations Act (TINA). The FAR requires that the contractor
    submit certified cost or pricing data for contract actions exceeding $550,000
    unless an exception is cited. Certified cost or pricing data are not required if price
    competition exists, if commercial items are being purchased, if prices are set by
    law or regulation, or if a waiver is obtained. See the “TINA Compliance” section
    of the finding for further discussion of TINA requirements.

    According to the FAR, an indefinite-delivery/indefinite-quantity contract provides
    for indefinite quantities, within limits, of supplies or services during a fixed
    period. The Government places orders for individual requirements on separate
    task or delivery orders.

    FAR 37.102 states that performance-based contracting methods are the preferred
    method for acquiring services. It also states that agencies must use
    performance-based contracting methods to the maximum extent practicable.


Objectives
    Our overall objective was to determine whether contracting officials were
    following prescribed procedures when awarding and managing contracts for
    Professional, Administrative, and Management Support Services. Specifically,
    we examined the market research, the types of contracts used to purchase
    services, the adequacy of competition and price reasonableness determinations,
    and the Government surveillance. We also evaluated the management control
    programs as they applied to the overall objective. See Appendix A for a
    discussion of the scope and methodology and our review of the management
    control programs. See Appendix B for prior coverage related to the audit
    objectives.


                                          3
                  Continuation of Problems in the Award
                  and Administration of Service Contracts
                  Contracting officials continue to award and administer contracts for
                  services without following prescribed procedures. Many of the problems
                  identified in Report No. D-2000-100 continue to exist. Of 113 contract
                  actions reviewed, 98 contract actions had 1 or more of the following
                  problems:

                            •   nonuse of historical information for defining requirements,

                            •   inadequate competition or questionable sole-source awards,
                            •   inadequate basis for price reasonableness determinations,

                            •   inadequate contract surveillance, and

                            •   noncompliance with TINA procedures.

                  Contracting organizations and program offices did not place adequate
                  emphasis on defining performance requirements, supporting
                  determinations that prices were fair and reasonable, or monitoring cost
                  reimbursable and T&M type contracts. In addition, contracting officials
                  awarded 14 contract actions that did not comply with TINA requirements.
                  As a result, the same contractors continue to receive noncompetitive
                  contract awards for performing the same services they have provided for
                  years. Often, the Government guarantees profits to the contractors by
                  assuming cost risks, paying the contractors on a cost reimbursable basis
                  without adequately determining whether prices are reasonable or whether
                  contractors efficiently perform the tasks.


Contract Actions Reviewed
               Our review included 113 contract actions awarded at 12 DoD locations. The
               contract actions related to 69 contracts with an estimated value of
               $17.8 billion1 and 44 task orders awarded from those contracts valued at
               $100.1 million. The estimated value included $16.3 billion representing six
               multiple-award contracts. The contract actions reviewed were awarded
               during FY 2000 and FY 2001 and included 16 fixed-price actions, 75 cost
               reimbursable actions, and 22 actions that could have been either fixed-price
               or cost reimbursable. The contract actions represented awards from
               numerous contract types including indefinite-quantity/indefinite-delivery
               contracts. Table 1 provides a breakdown by DoD Component of service
               contract actions reviewed.
1
 Estimated value represents the amount that contracting officials estimate as the value of an entire contract
including all option years. If the term estimated value is not used, the dollar value will refer to the value of
contract orders in effect at the time of the audit.



                                                       4
                    Table 1. Service Contract Actions Reviewed by DoD Component

                            DoD             Location         Contract Actions   Estimated Value
                          Component         s Visited           Reviewed           (millions)
                        Army                         3                     30           $ 2,044

                        Navy                         4                     45            15,277

                        Air Force                    4                     29                  413

                        Defense Agency               1                      9                   23

                         Total                     12                     113           $17,757


Service Contract Problems
           Of the contract actions examined, 87 percent (98/1132) had at least 1 award or
           administration problem. Specifically, we identified nonuse of historical
           information for defining requirements, inadequate competition or questionable
           sole-source awards, inadequate basis for price reasonableness determinations,
           inadequate contract surveillance, and noncompliance with TINA procedures.
           Table 2 summarizes problems identified during the audit. Appendix C identifies
           the problems for each contract action examined.

                                    Table 2. Summary of Problems Found

                                                                                Occurrences/
                                     Problem Areas                               Universe            Percent
               Nonuse of Historical Information for Defining Requirements             61/891              69

               Inadequate Competition or Questionable Sole-Source Awards              32/113              28

               Inadequate Basis for Price Reasonableness Determinations               79/902              88

               Inadequate Contract Surveillance                                       29/433              67

               Noncompliance with TINA Procedures                                     14/914              15
           1
            Represents the number of contract actions examined for which historical information existed.
           2
            Represents the number of contract actions examined that contained specific tasks (excludes basic
           indefinite-delivery/indefinite-quantity contract actions).
           3
            Represents the number of cost reimbursable and T&M contract actions examined that contained
           specific tasks for which the adequacy of surveillance was determinable.
           4
            Represents the number of contract actions for which contracting officials were aware that the
           dollar value exceeded or should have exceeded the $550,000 threshold.

2
    Judgment sample percentage does not generalize to universe.



                                                         5
Use of Historical Information for Defining Requirements
     Several of the cost reimbursable and T&M contracts examined were for follow-on
     requirements to previous cost reimbursable and T&M contracts originating at
     least 10 years earlier. Instead of using prior contracts for defining requirements
     and determining prices for contracts, contracting officials continued to use cost
     reimbursable and T&M contracts without explaining why those types of contracts
     are still necessary as opposed to fixed-price contracts. Usually, contract files
     include a brief statement that cost reimbursable or T&M type contracts were
     necessary because contracting officials could not sufficiently define requirements.
     However, some of the files examined contained no explanation. Also, contracting
     officials did not regularly use performance-based contracting methods to better
     define requirements as well as develop metrics for contractor performance.

     Use of Historical Information. FAR 16.104(d) states that:
                Complex requirements, particularly those unique to the Government,
                usually result in greater risk assumption by the Government. This is
                especially true for complex research and development contracts, when
                performance uncertainties or the likelihood of changes makes it
                difficult to estimate performance costs in advance. As a requirement
                recurs or as quantity production begins, the cost risk should shift to the
                contractor, and a fixed-price contract should be considered.

     In 61 of the 89 contract actions reviewed that had a history, little indication
     existed that contracting officials had examined the information from prior
     contracts to better define requirements. Instead, contracting officials stated that
     they could not use fixed pricing arrangements for follow-on contracts because the
     requirements could not be clearly defined. In 28 of the 89 contract actions
     reviewed that had a history, contracting officials used the historical information.
     However, officials only awarded 12 of the actions on a fixed-price basis. Table 3
     contains examples of contracts with notable history that were awarded on either a
     cost-plus-fixed-fee (CPFF) or a T&M basis.

           Table 3. Cost Reimbursable Contracts With Significant History

                              Estimated                                                      Histor
                                Value                                            Contrac        y
       Contract Number        (millions)             Type of Service              t Type     (years)
      DAAH01-01-C-0141          $111.0             Engineering Technical           CPFF        17

      DAAB07-01-C-                23.3             Engineering Technical           CPFF        13
      C206

      N00024-00-C-5393            23.9       Program Management/Support            CPFF        30+

      N00421-00-D-0361            17.0       Program Management/Support            CPFF        13

      F09603-01-C-0402              2.7            Systems Engineering             T&M         30




                                               6
An example of a contract awarded without adequately using historical
information to define requirements was when Army contracting officials awarded
contract DAAH01-01-C-0141 in 2001. The contract, with an estimated value of
$111 million, was awarded on a CPFF basis for general system support services
related to the Multiple Launch Rocket System. The contract file identified that
dating back to 1984 Army contracting officials had awarded 17 sole-source
contract actions to the same contractor for services related to the Multiple Launch
Rocket System. The contracting officer stated that it was almost certain that the
17 prior contract actions had also been awarded on a cost reimbursable basis.
However, no explanation as to why a CPFF contract was still needed for the
eighteenth contract existed. In addition, the contracting officer’s representative
(COR) had transferred to another position and the COR position remained vacant.
After accumulating 17 years of historical information from earlier contracts,
accepting that contracting officials were still unable to define the requirements is
difficult. Contracting officials should not have awarded a cost reimbursable type
of contract without considering the use of another contract type more favorable to
Government interests.

Two Air Force activities continue to define requirements and award contracts for
services on a fixed-price basis. In 2000, Air Force contracting officials awarded,
for example, contract F42610-01-C-0004, with an estimated value of
$13.6 million, for engineering services related to the Electromagnetic Pulse
Hardness Evaluation of U.S. Air Force Minuteman Intercontinental Ballistic
Missile Systems. Documentation in the contract files indicated that contracting
officials chose a fixed-price arrangement for $13 million of the $13.6 million total
contract cost after determining that contractor data supported a realistic basis for
determining probable performance costs.

Air Force contracting officials were able to award contract F33657-01-C-5003,
with an estimated value of $1.9 million, contract F33657-00-C-4050, with an
estimated value of $2 million, and contract F33657-00-C-4063, with an estimated
value of $1.6 million, as firm-fixed-price contracts because of the well-defined
requirements for the services to be performed. In each of those three contracts,
the contracting officer stated that a fixed-price contract was used because over the
years the contracting and program offices developed a close working relationship
with the contractor. Although system engineering services were obtained under
the Air Force contracts and engineering technical services were obtained under
the Army contract, the Air Force used the historical information to better define
requirements whereas the Army did not.

Some of the Army contracting officials we interviewed were concerned that the
use of fixed-price contracts would result in higher prices while Air Force
contracting officials stated that in many cases, fixed-price contracts for services
were feasible. Higher prices for fixed-price contracts are a possibility. However,
clear requirements with fixed prices should increase competition and thereby
reduce prices. The FAR states that as a requirement recurs cost risk should shift
to the contractor and a fixed-price contract should be considered. Military
Departments, Defense contracting organizations, and program offices need to
place greater emphasis on defining requirements, especially in situations where
contracts are for follow-on requirements for the same or similar requirements.



                                     7
            Performance-Based Contracts. Performance-based contracts offer significant
            benefits. Primarily, performance-based contracts encourage that contractors are
            innovative and find cost-effective ways of delivering services. By shifting the
            focus from process to results, contractors may also deliver better outcomes. To
            ensure that DoD realizes savings and performance gains, the Under Secretary of
            Defense for Acquisition, Technology, and Logistics has established that
            50 percent of dollars awarded for service acquisitions3 must be
            performance-based by year 2005.

            FAR 37.602-5 provides guidance for the use of performance-based contracting
            methods when historical information exists. The FAR states that:
                          When acquiring services that previously have been provided by
                          contract, agencies shall rely on the experience gained from the prior
                          contract to incorporate performance-based contracting methods to the
                          maximum extent practicable. This will facilitate the use of fixed-price
                          contracts for such requirements for services.

            Contracting officials interviewed were familiar with the term performance-based
            contracting; however, they used performance-based contracting methods in only
            12 of the 89 contract actions reviewed that had a history. If they are going to
            meet the mandate of the Under Secretary of Defense for Acquisition, Technology,
            and Logistics to use performance-based methods for at least 50 percent of service
            acquisitions measured both in dollars and actions by the year 2005, Military
            Departments and Defense agencies should ensure that program office personnel
            are properly trained in the use of performance-based contracting methods. See
            Appendix E for a discussion of legal guidance on contracts for services.


Competitive and Sole-Source Awards
            The best method for the Government to determine that prices paid for services are
            fair and reasonable is to award service contracts on a competitive basis.
            Full-and-open competition assures cost effectiveness as well as reduces the
            potential for favoritism and conflicts of interest. However, of the 113 contract
            actions reviewed, only 42, valued at $121 million, were awarded competitively.4
            The other 71 contract actions, valued at $472.7 million, were awarded on a
            sole-source basis. Even when awarded competitively, the Government awarded
            several high-value contracts after receiving only one offer, a circumstance that
            can nullify the benefits of competitive awards. Table 4 identifies, by
            DoD Component, the number of contract actions examined that were competed
            and received more than one offer, the contract actions that were competed but
            received only one offer, and the contract actions that were sole-source awards.


3
    Certain types of services identified by the Office of Federal Procurement Policy as not particularly suited
    to performance-based efforts will be excluded when computing the percentage of contract dollars
    awarded for performance-based service acquisitions.
4
    For purposes of this report, competition includes FAR 16.5 provisions regarding expectation of fair
    opportunity to be considered.



                                                         8
                      Table 4. Competitive and Sole-Source Contract Actions

                         Competitive     Actual                         Actual                 Actual
            DoD           Multiple        Value          Competitive     Value       Sole-      Value
          Component        Offer        (millions)        One Offer    (millions)   Source    (millions)

          Army                     5         $ 3.2                 3       $ 5.0        22       $144.7

          Navy                    25          23.0                 6        86.7        14        116.7

          Air Force                2           2.2                 1          0.9       26        198.0

          Defense
          Agency                   0           0.0                 0          0.0        9         13.3

           Total                  32         $28.4               10        $92.6        71       $472.7



        Competitive Awards. In the contract process, competition for contract actions
        and receipt of multiple offers ensures that the prices for goods and services are
        fair and reasonable. Of the 42 contract actions examined that were subject to
        competition,5 32 actions, valued at $28.4 million, were competed and received
        multiple offers. The remaining 10 contract actions, valued at $92.6 million, were
        awarded after contracting officials received only one offer.

                Competitive (Multiple Offer) Contract Actions. The 32 contract
        actions that received multiple offers represented only 23 percent (28.4/1212) of
        the value of contract actions reviewed that were subject to competition. In the
        instances when competition among multiple offerors existed for both labor rates
        and labor hours, the Government and taxpayers had reasonable assurance that the
        prices paid for the services were fair and reasonable.

                Competitive (One Offer) Contract Actions. The 10 contract actions that
        received only one offer represented 77 percent (92.6/1212) of the value of contract
        actions reviewed that were subject to competition. Contracting officials generally
        contended that competition had occurred because the expectation of competition
        existed. FAR 15.403-1 states that when the Government receives one offer, the
        price is based on adequate competition if the offeror and the contracting officer
        believed that the offer was submitted with the expectation that other offers would
        be received. However, for 3 of the 10 contract actions examined, valued at
        $40.8 million, the contracting officials did not convincingly show that the
        contractors who submitted the only offers submitted those offers with the
        expectation of competition from other contractors. For 2 of those 3 contract


5
  Contract actions reviewed were separated into two categories for purposes of this analysis. The first
group was competitive awards and the second was those contract actions awarded on a sole-source basis or
as a directed small business set-aside. Actions “subject to competition” refers to those awards considered
competitive awards.



                                                     9
actions, the sole offeror was an incumbent contractor who had been receiving
follow-on contracts for the same or similar requirements that originated many
years earlier.

Navy contracting officials awarded contract N00421-01-C-0046, valued at
$36.7 million, for systems engineering, analysis, development, and integration of
warfare systems in Navy aircraft. Market research consisted of synopsizing the
requirement in the Commerce Business Daily and publishing on the Internet.
Although several contractors expressed interest in the requirement, the
Government received only one offer. Because of the interest by other contractors,
the contracting officer determined that competition had occurred. Documentation
in the contract files states that:
           The contract specialist’s expectation of more than one offeror is based
           on the response to the CBD [Commerce Business Daily]
           announcement. Due to the competitive environment in which [the
           offeror] thought they were bidding and because the contract specialist
           expected more than one offeror, the contracting officer and contract
           specialist believed that the requirements of adequate price competition,
           as specified in FAR 15.403-1(c) were met.

Contract N00421-01-C-0046 was a follow-on contract awarded to the same
contractor who had been awarded at least five prior contracts over a 14-year time
period for the same services. The incumbent contractor had submitted the only
offer in three of the five prior contracts. In another contract, the incumbent
contractor performed work as a subcontractor for a contract that had been
awarded after two other bidders were eliminated as a result of technical
considerations. Documentation in the contract files describes concern by
contracting officials with the extent of competition that had occurred up to that
point in 1992. However, those contracting officials awarded three more contracts
to the same contractor who, in each case, submitted the only offer.

Navy contracting officials at another location awarded contract
N00244-01-C-0040, valued at $3.2 million, to the same contractor. The contract
was also considered a competitive contract even though only one offer was
received. The purpose of the contract was to develop, prepare, and conduct war
games using the enhanced naval warfare gaming system. According to the
contracting officer, the contract was a follow-on contract awarded to a contractor
that had been performing those services for many years. In addition, market
research was very limited and consisted of posting the solicitation on the Navy
Electronic Commerce Internet site.

Sole-Source Awards. Of the 113 contract actions reviewed, contracting officials
awarded 63 percent (71/1132) on a sole-source basis. The 71 sole-source awards
represent nearly 80 percent (472.7/593.72) of the value of the contract actions
reviewed. Contracting officials did not adequately justify the use of a specific
contractor for 27 contract actions, valued at $201 million.

An example of an inadequate sole-source justification is Army contract
DAAH23-01-D-0266. Contracting officials justified a sole-source contract award
for 2001 with an estimated value of $40 million by stating that the contractor was


                                        10
the only contractor that could provide the required support services without
interruption of current services for the Advanced Threat Infrared
Countermeasures/Common Missile Warning System. FAR 6.302-1 states that
services may be deemed available only from the original source in the case of
follow-on contracts. The follow-on contracts must be for highly specialized
services and award to any other source must be likely to result in unacceptable
delays in fulfilling the agency’s requirements. However, the contract action was
for a new requirement and was not a follow-on contract. Unacceptable delays
were, therefore, not a valid reason to sole-source the contract. Better value may
have been provided by the three other companies that expressed an interest in
providing the support services.

Army contracting officials at another location kept the award amount of a directed
Section 8(a) contract under the $3 million threshold requiring competition.
Contracting officials awarded order number 1 under DAAE07-00-D-T049 for
$949,170. The value increased, however, to $11.3 million and was significantly
over the $3 million threshold. Documentation in the contract file indicates that
the award amount was kept under the competitive threshold. According to the
contracting officer:
           The proposed contract will be a 5 (five) year, indefinite-quantity Time
           and Materials [T&M] contract with a minimum of $25,000 and a
           maximum ceiling for the total contract of $15 million. The initial
           [Section] 8(a) contract is restricted by the SBA [Small Business
           Administration] to not greater than $3 million at this time, however the
           local SBA office has acknowledged that when we near the actual Basic
           Contract ceiling of $2,950,000, if the contractor continues to perform
           in a manner acceptable to the government, a petition may be sent to the
           SBO [Small Business Office] by the contracting office to extend the
           ceiling, in less than $3M [sic] increments, with the total contract not to
           exceed $15 million.

FAR 19.805-1(a) states that an acquisition offered to the Small Business
Administration under the Section 8(a) program shall be awarded on the basis of
competition limited to eligible Section 8(a) firms if the anticipated value of the
total value of the contract, including options, will exceed $5 million for
acquisitions assigned manufacturing North American Industry Classification
System Codes and $3 million for all other acquisitions. FAR 19.805-1(c) also
states that a proposed Section 8(a) requirement with an estimated value exceeding
the applicable competitive threshold amount shall not be divided into several
requirements for lesser amounts in order to use Section 8(a) sole-source
procedures for award to a single firm.

The amount of inadequately justified sole-source awards appears to indicate that
contracting officials and program offices are attempting to use sole-source
provisions to avoid FAR competition requirements. Table 5 shows the types of
sole-source justifications used and how many were deemed adequate.




                                         11
                          Table 5. Sole-Source Justifications

                           Justification           Number    Adequate

                 One Responsible Source              38         27

                 Urgency of Need                      3          0

                 Industrial Mobilization              5          3

                 International Agreements             2          1

                 National Security                    8          1

                 Directed Section 8(a) Set-Aside     15         12

                  Total                              71         44




Price Reasonableness Determinations
    In 79 of the 90 contract actions reviewed that contained specific tasks, contracting
    officials did not adequately support price reasonableness determinations.
    Contracting officers often determined that prices were fair and reasonable based
    on the favorable results of technical evaluations the program office generated.
    However, the technical evaluations lacked detail, and in most cases, did not
    explain the basis for the determination that contractor-proposed hours, labor
    mixes, and material costs were reasonable. In addition, IGCEs were often vague
    and did not adequately explain the basis for determining the estimated amounts
    for labor rates, labor categories, labor hours, and direct and indirect costs. When
    questioned about the lack of detail in the technical evaluations and IGCEs,
    contracting officers stated that they were not technical experts and had to rely on
    the expertise of the technical people. At one location, contracting officers stated
    that they did not want to burden program offices by asking for more detail. Also,
    contracting officials stated that the General Services Administration did not
    require Government cost estimates or technical evaluations to award service
    contracts on Federal Supply Schedules. The contracting officials stated that they
    were worried that if DoD contracting officers insisted on receiving detailed
    Government cost estimates and technical evaluations, the program offices would
    take their business to the General Services Administration.

    Because of the lack of adequate support documentation in contract files,
    determining whether contracting officials obtained fair and reasonable prices for
    services was, in most cases, impossible. The following example describes the
    information that one contracting officer used to determine that prices paid were
    fair and reasonable. The contracting officer determined that the $1.1 million price
    paid for order 27, awarded under Army multiple-award contract
    DAAH01-00-D-0021, was fair and reasonable based on information contained in


                                            12
the technical evaluation and the IGCE. The technical evaluation was vague and
states that the contractor’s proposed hours and proposed labor categories were
reasonable because the same amounts were contained in the IGCE. The technical
evaluation also states that no reviews of travel or material costs were performed.
Those costs, however, were reasonable because a presumption existed that the
contractor would not propose for any items not stated within the statement of
work. The value of travel and material costs was $179,020. The IGCE was also
vague; it consisted only of a list of labor categories, labor hours, direct and
indirect costs, and amounts for material. The estimate did not provide a basis for
those estimates. The IGCE took on greater importance because the Government
provided a suggested number of labor hours for which the contractor could bid.
Based on that information, the contracting officer certified that the $1.1 million
price paid was fair and reasonable.

IGCEs. Of the 90 contract actions reviewed that contained specific tasks,
88 either did not contain or contained inadequate IGCEs. When prepared, the
estimates were usually unsigned, undated, and consisted of only a list of labor
categories, labor rates, and labor hours, with no explanation of how the program
office determined those amounts. The development of the estimates took on
greater importance in those situations where the Government recommended the
amount of labor hours, labor rates, and labor categories used for completing tasks.
Report No. D-2000-100 recommends that Acquisition Executives for the Army,
the Navy, and the Air Force make acquisition personnel aware of the problems
found in IGCEs, technical evaluations, and PNMs. The problems, however, are
still occurring.

Technical Evaluations. Technical evaluations for 73 of the 90 contract actions
examined containing specific tasks were cursory and did not adequately explain
the basis for determining the acceptability of contractor-proposed costs, especially
for the proposed hours of the contractor. For the most part, the technical
evaluations consisted of nothing more than a few sentences or an e-mail message
from the technical evaluator to the contracting officer stating that
contractor-proposed prices were acceptable. Contracting officials then used the
technical evaluations as their basis for determining that prices paid were fair and
reasonable. When questioned on the level of detail contained in the technical
evaluations, contracting officials stated that they were not technical experts and,
therefore, had to rely on technical evaluator statements that the
contractor-proposed prices were acceptable with no basis.

In one situation, Army contracting officials quickly awarded a fifth follow-on
contract to a contractor without performing adequate contracting procedures to
make the award before the expiration of funds. When awarding contract
DAAB07-01-C-C206, with an estimated value of $23.3 million, contracting
officials did not adequately justify awarding a CPFF contract as the fifth
follow-on contract awarded to the same contractor. According to contracting
officials, a technical evaluation had to be accomplished quickly “since funds will
expire [at the] end of this fiscal year.” As a result, the technical evaluation
consisted of only a one-line e-mail stating that “material cost, travel cost, and
labor hours are acceptable.” The contract file contained an IGCE; however, the
estimate was unsigned and undated and consisted of a list of labor categories,
labor rates, and labor hours—with no explanation of the basis for the estimated


                                    13
     information. Contracting officials did not request Defense Contract Audit
     Agency assistance. Also, the PNM was lacking because it did not answer the
     basic question about whether the price was fair and reasonable.

     Price Reasonableness Decisions. Contracting officers need to better document
     their price reasonableness determinations and make price reasonableness
     decisions based on the results of detailed analysis rather than from unsupported
     statements and opinions. In 79 instances of the 90 contract actions reviewed that
     contained specific tasks, the information in contract files was incomplete and did
     not clearly support the contracting officers’ determinations that prices paid were
     fair and reasonable. The contracting officers generally documented in the PNM
     the basis for price reasonableness decisions. In some instances, however,
     although program offices developed an IGCE, no mention of the estimate was in
     the PNM and no mention of whether the contracting officer relied on the IGCE as
     part of the overall price reasonableness determination was in the contract file. In
     other instances, the Defense Contract Audit Agency identified cost issues and no
     mention of the identified issues was in the PNMs. Instances existed where the
     PNMs did not identify whether the prices paid were fair and reasonable. Labor
     rates and labor hours were the areas most lacking in price validations.

              Labor Rates. In 24 of the 90 contract actions reviewed that contained
     specific tasks, contracting officials did not adequately justify labor rates.
     Contracting officers usually requested assistance from the Defense Contract Audit
     Agency to validate labor rates. The assistance provided, however, was often
     either limited or would take too long to provide so the contracting officer used
     other methods to validate labor rates. Sometimes, labor rate validation consisted
     simply of a telephone request for labor rate checks. In those cases where
     contracting officers did not obtain Defense Contract Audit Agency assistance,
     labor rates were usually validated using questionable methodology or were
     accepted simply on the word of an unsupported technical evaluation.

             Labor Hours. In 67 of the 90 contract actions reviewed that contained
     specific tasks, the PNM insufficiently validated labor hours and labor mixes. In
     most cases, contracting officers considered the number of labor hours proposed
     satisfactory based on unsubstantiated technical evaluations.


Contract Surveillance
     FAR 16.301-3 states that cost reimbursable type contracts can be used only if
     appropriate Government surveillance during performance will provide reasonable
     assurance that efficient methods and effective cost controls are used. Defense
     Federal Acquisition Regulation Subpart 201.6, “Contracting Authority and
     Responsibilities,” states that contracting officers may designate qualified
     personnel as their authorized representatives to assist in either technical
     monitoring or administration of a contract.

     Of the 113 contract actions reviewed, we met with CORs or program office
     officials for 43 contract actions awarded for specific tasks on a cost reimbursable
     basis. Surveillance was inadequate for 29 of the 43 contract actions.


                                          14
CORs. Contracting officers designated in writing a COR for 21 of the
43 contract actions reviewed. Contract surveillance for 13 of the 21 contract
actions was inadequate. COR surveillance files were limited and usually
consisted of a copy of the contract as well as a few contractor monthly status
reports and invoices. Some of the CORs did not have a copy of the contract. In
addition, COR surveillance consisted primarily of a review of contractor invoices
and contractor-generated monthly status reports. Surveillance measures focused
more on the expenditure of funds, or “burn rates,” than on whether contractors
were performing efficiently. In one instance, the COR position was vacant, and
the position had not been replaced.

In 22 of the 43 contract actions reviewed, contracting officers did not designate in
writing a COR. In each of those situations, contracting officers attempted to
provide the audit team with program office officials who could answer
surveillance-related questions. However, little evidence existed that program
officials were performing surveillance. The officials did not have adequate
surveillance files and, in some cases, did not have a copy of the contract. They
also expressed difficulty in describing specific steps performed. When asked to
describe specific surveillance steps, officials stated that they reviewed
contractor-generated monthly reports and invoices. In one instance, contracting
officials had difficulty determining which program office official the audit team
should interview.

For Air Force contract F42610-00-C-0011, the value of which was estimated at
$2.1 million, a contracting officer not assigned to this contract was identified as
the COR performing surveillance. Contracting officials subsequently provided
two additional people from the program office to be interviewed for
surveillance-related questions. However, neither of the persons identified could
answer detailed surveillance-related questions about the contract and appeared
confused about why they were being interviewed.

On the other hand, two CORs assigned surveillance duties under Navy contract
N00421-00-C-0184 were able to provide detailed information on their
surveillance duties. They also provided a detailed surveillance file. During a
meeting, the CORs stated that their contracting office would not accept a
requirements package from their program office unless the procurement package
included a copy of a COR designation letter and a copy of the training certificate
for the COR.

Report No. D-2000-100 recommends that Acquisition Executives for the Army,
the Navy, and the Air Force review the assignment of contract surveillance work
for contracts for services and adjust assigned workload and staffing to resolve
imbalances. As a result, the Army established the Army Contracting Agency. To
reduce the need for surveillance, the Navy planned to increase the use of
performance-based contracting principles and rely more on past performance
information in source selection. The Air Force believed that the review was an
installation-level issue and Air Force Instruction 63-124, “Performance-Based
Service Contracts (PBSC),” already requires that the installation Performance
Management Council, as one of its key management duties, provide synergy in
addressing installation issues. However, during this audit, we saw no



                                     15
    improvement in this area. The CORs and others performing surveillance should
    be specifically trained to perform adequate contract surveillance on cost
    reimbursable and time-and-materials service contracts.

    Effective Cost Controls. DoD officials need to make sound judgments on
    service contract requirements including estimating costs and be able to determine
    whether the contractor is performing according to the contract terms and
    conditions. Officials must retain control over, and remain accountable for, policy
    decisions that may be based, in part, on a contractor’s performance and work
    products.

    Of the 113 contract actions reviewed, 35 included questionable cost growth of
    $90.3 million over originally estimated prices. Of those 35 contract actions,
    30, with increased costs of $52 million, were cost reimbursable contracts or
    included cost reimbursable provisions. For example, Navy contracting officials
    awarded T&M contract N00421-00-D-0264, task order 1, for a total award of
    $393,192. Additional work was added to the task order after the initial award, for
    a total cost growth of $1.8 million. The final task order price was more than
    $2.2 million, which is nearly six times the amount of the initial task order.
    According to the contracting officer, the initial award may have been awarded for
    the amount of funding available at the time of award. When cost reimbursable
    contracts are used, contracting and program officials need to ensure that
    contractors have incentives for controlling costs. If contract incentives are not
    sufficient, close surveillance of contractor performance is necessary for ensuring
    that effective cost controls are present.


TINA Compliance
    FAR 15.403-4 states that contracting organizations will obtain certified cost or
    pricing data for all contract actions valued over $550,000 except when:

           •   the price is based on adequate price competition,
           •   prices are set by law or regulation,

           •   a commercial item is being acquired,

           •   a waiver has been granted, or

           •   contracts or subcontracts for commercial items have been modified.

    FAR 15.403-4 also states that unless an exception applies, certified cost or pricing
    data are required before awarding negotiated contracts, subcontracts, and
    modifications for any sealed bid or negotiated contract (whether or not cost or
    pricing data were initially required). Of the 113 contract actions examined,
    contracting officials were aware that 91 either exceeded or should have exceeded
    the $550,000 threshold. Of those 91 contract actions, contracting officials did not
    comply with TINA procedures for 14, valued at $63.2 million. In several



                                         16
    instances, contracting officials were either not able to explain why certified cost
    or pricing data were not obtained or did not understand when certified cost or
    pricing data were required.

    In one situation, an Army contracting officer kept the award value under the
    $550,000 threshold. On July 5, 2001, contracting officials awarded contract
    DAAE07-01-C-M037 for $548,267; $1,733 under the $550,000 threshold
    requirements for certified cost or pricing data. The award amount being slightly
    under the threshold was no coincidence. According to documentation in the
    contract file, the contracting officer wanted the contract to be awarded under the
    TINA threshold. The contracting officer stated:
               I’d like to keep the priced effort under $550k [$550,000] so we need to
               talk about how to structure this. Some of the travel could be left out
               and added when it becomes clear he will travel.

    Contracting officials subsequently issued eight modifications that increased the
    contract from $548,267 to $1,629,278.98.


Service Contract Requirements
    Defining requirements up front has several benefits: it makes it easier for
    contractors to price proposals; it increases the probability that competition will
    occur; and it also increases the probability that fixed pricing arrangements can be
    used, resulting in less cost risk to the Government and in less human resource
    expenditures to perform surveillance functions. However, contracting officials
    did not demonstrate a serious effort on defining requirements, especially in
    situations where contracts were repetitively awarded to the same contractors for
    the same or similar services over extended time frames.

    Report No. D-2000-100 recommends that the Deputy Under Secretary of Defense
    (Acquisition Reform), now called the Director of Defense Procurement and
    Acquisition Policy, develop a training course and train contracting and program
    personnel on planning and defining requirements as well as using historical data
    when awarding contracts for Professional, Administrative, and Management
    Support Services. However, no indication exists that the process is substantially
    improving. Accordingly, we believe that contracting organizations need to place
    more emphasis on defining requirements.

    Emphasis on Defining Requirements. Contracting officials claimed that
    requirements could not be defined well enough to consider the use of fixed
    pricing arrangements while at the same time identifying the existence of years of
    historical data related to prior contracts awarded to the same contractors, for the
    same or similar services. During meetings, contracting officials appeared more
    comfortable in using cost reimbursable and T&M type contracts and in some
    instances believed that the use of fixed-price contracts for services would almost
    certainly increase the cost of the contract. In some instances, indications were
    present that decisions regarding whether to use a cost reimbursable or T&M type
    contract were made solely by the program offices.


                                            17
Management Controls. At the sites visited, the Military Departments and the
Defense Microelectronics Activity did not include the award and administration
of Professional, Administrative, and Management Support Services as an area of
review in their management control programs. Therefore, the management
control programs were inadequate for providing reasonable assurance that Federal
regulations were properly adhered to during the contract award and administration
process for Professional, Administrative, and Management Support Services. In
our review of the contract files, inadequate support for price reasonableness
determinations existed. Contracting officials determined that prices were fair and
reasonable based on technical evaluations and IGCEs that lacked sufficient detail
for supporting labor rates, labor categories, labor hours, and direct as well as
indirect costs. Therefore, determining if the Government received the best value
was impossible. Adequate management controls would help ensure that the
Government obtained fair and reasonable prices for Professional, Administrative,
and Management Support Services.

Current Status of Centers of Excellence. The Military Departments have made
ineffectual efforts at implementing centers of excellence. Report No. D-2000-100
recommends that Acquisition Executives from the Army, the Navy, and the Air
Force establish and use centers of excellence with personnel that have performed
research and received training to become expert buyers of Professional,
Administrative, and Management Support Services. Subsequently, the
requirement to develop centers of excellence for Professional, Administrative, and
Management Support Services became law. The National Defense Authorization
Act for FY 2001 (Public Law 106-398), section 821(c) directed that the Military
Departments had 180 days from October 30, 2000, to establish centers of
excellence for service contracts. The Army had Major Army Commands develop
centers of excellence but reported that the centers are subject to major revisions as
a result of the establishment of the Army Contracting Agency. The Navy
reported that the development of a center of excellence was delayed because of
technology infrastructure changes and a departmental reorganization. The Air
Force established a center of excellence in the Office of the Deputy Assistant
Secretary of the Air Force (Contracting) but does not require the use of the center
of excellence.

Service Contracting Management Structure and Strategic Plan. General
Accounting Office (GAO) Report No. GAO-03-935, “Contract Management:
High-Level Attention Needed to Transform DoD Services Acquisition,”
September 10, 2003, reports that DoD and the Military Departments each have a
management structure in place for reviewing individual services acquisitions
valued at $500 million or more, but that approach does not provide a DoD-wide
assessment of how spending for services could be more effective. In addition, the
Military Departments are in the early stages of separate initiatives that may lead
them to adopt a strategic approach to buying services, but DoD lacks a plan that
coordinates these initiatives or provides a road map for future efforts.

The GAO recommended that DoD strengthen its contracting management
structure for services to promote use of best practices such as centralizing key
functions, conducting spend analyses, using commodity teams, achieving strategic
orientation, reducing purchasing costs, and improving performance. DoD also
needs a strategic plan on how the Military Departments could best accomplish


                                     18
    those best practices. DoD concurred in principle with the recommendation to
    change its management structure and partially concurred with the
    recommendation for a strategic plan.


Conclusion
    The Office of Federal Procurement Policy has addressed procurement of services
    in guidance. Problems related, however, to contracts awarded for services are
    still abundant. In 1994, the Office of Federal Procurement Policy stated:
               . . . it is important that procurement officials work closely with
               program and other officials to develop clear and precise statements of
               work for the products and services being acquired. Contracting for
               services is especially complex and demands close collaboration
               between procurement personnel and the users of the service to ensure
               that contractor performance meets contract requirements and
               performance standards.

    The Office Of Federal Procurement Policy also announced the following policies
    for the Federal Government when contracting for services.

           •   Program officials are responsible for accurately describing the need to
               be filled or problem to be resolved through service contracting to
               assure full understanding and responsive performance by contractors,
               and should obtain assistance from contracting officials, as needed.

           •   Services are to be obtained in the most cost-effective manner, without
               barriers to full-and-open competition, and free of any potential
               conflicts of interest.

    Contractors are more likely to submit proposals when clearly understanding the
    requirement. The lack of contracting and program officials working together to
    define requirements has resulted in a lack of competitive contracts for services
    that receive multiple offers. Additionally, the program office may become
    familiar and satisfied with the performance of a specific contractor and wish to
    continue working with that contractor. Those factors cause the same contractors
    to continue to receive contract awards for performing the same services for
    inordinate time periods. To exacerbate matters, the contractors operate without
    risks as all work is accomplished on a cost reimbursable basis. Furthermore,
    surveillance is often insufficient to ensure efficient contractor operations and no
    contract incentives exist to motivate contractors to work efficiently. The
    Government is not receiving good value for its money under such circumstances.

    Clearly defined requirements on fixed-price contracts can provide opportunities
    for contractors to use innovative methods to increase efficiencies. Additionally,
    the use of fixed pricing arrangements would result in less expenditure of human
    resources for surveillance related duties. Accurate performance measurements
    contained in performance-based contracts can ensure satisfactory accomplishment
    of contracted tasks even by less experienced contractors performing the


                                            19
    contracted services. When a valid service requirement exists, DoD officials are
    required to obtain the service in the most cost-effective manner possible. If
    contractor support is appropriate, DoD procurement and program officials must
    ensure that the service is acquired from a quality vendor that constitutes the best
    value considering cost and other relevant factors.


Management Comments on the Finding and Audit Response
    Air Force Comments. The Associate Deputy Assistant Secretary of the Air
    Force for Acquisition Integration in the Office of the Assistant Secretary of the
    Air Force for Acquisition commented that this report failed to address the actions
    the Air Force has taken to satisfy the mandates of section 801 of the National
    Defense Authorization Act for FY 2002. The Assistant Secretary of the Air Force
    for Acquisition has established the Program Executive Office for Services that
    will provide oversight and management of service acquisitions over $100 million
    or 300 full-time equivalents. For smaller services acquisitions, heads of
    contracting activities have oversight and management responsibilities. In
    addition, the Assistant Secretary of the Air Force for Acquisition is in the process
    of identifying Air Force officials who will have statutory obligations to review
    and approve all services acquisitions and ensure they are performance-based. The
    Assistant Secretary of the Air Force for Acquisition is also amending the Air
    Force Federal Acquisition Regulations to designate the identified officials.
    Further, the Assistant Secretary of the Air Force for Acquisition and the Program
    Executive Office for Services have developed internal training packages in source
    selection techniques, past performance evaluations, and developing performance
    objectives and metrics as stopgap measures for meeting general education and
    training requirements relative to services contracting. The Air Force has also
    requested that the Defense Acquisition University allocate more resources to
    develop and add to its services contracting training curriculum.

    Audit Response. As stated, contract actions reviewed in this audit were awarded
    in FY 2000 and FY 2001. We commend the Air Force for recognizing services
    contracting problems occurring during that time and taking actions to improve.
    Future audits of services contracts will no doubt reflect the contract
    improvements resulting from Air Force actions taken in response to section 801
    of the National Defense Authorization Act for FY 2002.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

           a. Monitor the establishment and use of centers of excellence in
    service contracting as required by section 821(c) of the National Defense
    Authorization Act for FY 2001 (Public Law 106-398).



                                         20
Management Comments. The Under Secretary of Defense for Acquisition,
Technology, and Logistics concurred. The Director, Defense Procurement and
Acquisition Policy, responding for the Under Secretary, stated that the Director’s
office will send a memorandum to the Military Departments and Defense
agencies within 10 working days asking them to report on efforts to establish
centers of excellence, how such centers have been used, and the experience
gained at the centers.

      b. Train program office personnel on using performance-based
contracting methods for service contracts, including how to develop
performance-based statements of work and performance measures.

Under Secretary of Defense for Acquisition, Technology, and Logistics
Comments. The Director, Defense Procurement and Acquisition Policy
responded for the Under Secretary. The Director concurred and attached an
August 19, 2003, memorandum that establishes the requirement for personnel
who prepare statements of work, including program office personnel, to be trained
on performance-based service acquisitions by September 30, 2005.

Air Force Comments. Although not required to comment, the Assistant
Secretary of the Air Force for Acquisition, with reservation, concurred with the
recommendation that additional training is necessary in the area of performance-
based services acquisition. However, the Associate Deputy Assistant Secretary of
the Air Force for Acquisition Integration stated that the report failed to address all
that the Air Force is doing to improve training. The Assistant Secretary of the Air
Force for Acquisition is in the process of revising Air Force Instruction 63-124,
“Performance-Based Service Contracts,” April 1, 1999, which will expand the
application of performance-based services acquisition throughout the life of an
acquisition. The Air Force is also developing a performance-based services
acquisition guide that outlines the philosophy of performance-based services
acquisition, discusses the elements of performance-based services acquisition, and
provides various approaches for meeting the requirements of performance-based
services acquisition. In addition, the Assistant Secretary of the Air Force for
Acquisition and the Program Element Office for Services held a services
symposium in January 2003 with industry, major command contracting
representatives, and other customers to identify initiatives the Air Force must
implement to develop an effective services program.

      c. Require that contracting officers designate in writing any
personnel who perform Government surveillance on cost reimbursable and
time-and-materials contracts and include a list of duties and limitations.

Management Comments. The Under Secretary concurred. The Director,
Defense Procurement and Acquisition Policy, responding for the Under Secretary,
stated that the Director’s office would issue guidance in the next 10 working days
emphasizing that in accordance with Defense Federal Acquisition Regulation
Supplement 201.602-2(5), all contracting officers should designate
representatives in writing, and shall specify the contracting officer representatives
authority and limitations.




                                     21
            Audit Response. Although the Under Secretary concurred, the response is
            unclear as the Defense Federal Acquisition Regulation Supplement citation states
            that a contracting officer may designate a COR in writing. The intention of the
            recommendation is to create a requirement that for cost reimbursable and T&M
            contracts, contracting officers must designate a COR in writing unless unusual
            circumstances exist. We ask that the Under Secretary provide additional
            comments on the final report to clarify his position.

                   d. Require that contracting officer’s representatives and others
            performing surveillance be specifically trained to perform contract
            surveillance on cost reimbursable and time-and-materials service contracts
            that includes, at a minimum:

                          (1) Basic contract information, including the contract type and
            the implications on surveillance requirements, and

                         (2) Cost risk and any other Government concerns related to
            contract administration.

            Management Comments. The Under Secretary concurred. The Director,
            Defense Procurement and Acquisition Policy, responding for the Under Secretary,
            stated that the Director’s office would issue guidance in the next 10 working days
            emphasizing that in accordance with Defense Federal Acquisition Regulation
            Supplement 201.602-2(2), all CORs must be trained for their required duties.

                   e. Require that follow-on cost reimbursable and time-and-materials
            service contracts be approved at a level above the contracting officer to
            ensure that efforts are being made to award fixed-price contracts.

            Management Comments. The Under Secretary nonconcurred. The Director,
            Defense Procurement and Acquisition Policy, responding for the Under Secretary,
            stated that the contract type decision must be made on a contract-by-contract basis
            and that the contracting officer is in the best position to make that decision.
            Nevertheless, the Director, Defense Procurement and Acquisition Policy will
            issue a memorandum emphasizing the importance of using the appropriate
            contract type based on the criteria in the regulations.
            Audit Response. The Under Secretary’s comments are nonresponsive. Our audit
            showed that in 69 percent of the instances we reviewed, where historical
            information was available on how a contractor performed a service, the
            contracting officer did not consider that information when determining contract
            type and continued to use cost reimbursable or T&M type contracts that placed
            unnecessary cost risks on the Government6. We agree that the contracting officer
            is the best person to make the contract-type decision. However, historical
            information is a basic consideration for fixed-price contracts and because
            contracting officers often ignored that required basic consideration, even when a
            contractor performed essentially the same services for decades, a serious problem
            exists among contracting officers in the selection of contract type. We are

6
    Use of historical information to define requirements is explained more fully on Page 6 of this report.



                                                        22
advocating that another level review the decision to make sure that it is based on
sound judgment. We request that the Under Secretary reconsider his position and
provide additional comments or alternate solutions to the final report.

       f. Issue a memorandum for senior contracting officials and program
managers that clearly defines manager responsibilities regarding
stewardship of taxpayer dollars and states that fixed-price contracts are in
the best interest of the Government and that for a program manager to insist
on a cost reimbursable contract when a fixed-price contract is appropriate is
a denunciation of his duties.

Management Comments. The Under Secretary partially concurred. The
Director, Defense Procurement and Acquisition Policy, responding for the Under
Secretary, stated that the Director’s office would issue guidance in the next
10 working days asking Military Departments and Defense agencies to ensure
that appropriate contract types are used when acquiring services.

Audit Response. The comments are responsive to the intent of the
recommendation.

2. We recommend that Acquisition Executives for the Army, the Navy, and
the Air Force, and the Director, Defense Microelectronics Activity:

       a. Place greater emphasis on defining requirements and the use of
fixed-price contracts especially in situations where contracts are follow-on
contracts.

Army Comments. The Deputy Assistant Secretary of the Army (Policy and
Procurement) concurred in principle, stating that the Army continues to believe
that the contracting officer remains in the best position to make the determination
of contract type. The Army also believes that the existing guidance on the
selection of contract type is clear; however, the Army will stress the importance
of selecting the appropriate contract type.

Navy Comments. The Chief of Staff/Policy for the Deputy Assistant Secretary
of the Navy for Acquisition Management concurred in principle, stating that Navy
contracting officers recognize the advantages of fixed-price contracts but make
contract type decisions based on specific circumstances surrounding the instant
requirement in accordance with FAR Part 16.

Air Force Comments. The Associate Deputy Assistant Secretary of the Air
Force for Acquisition Integration concurred, stating that the Air Force is aware of
the problems identified in the report and has already started addressing them.

Defense Microelectronics Activity Comments. The Director, Defense
Microelectronics Activity concurred with the recommendation, stating that
Defense Microelectronics Activity contracting officials already review the
requirements and available history to ensure that the appropriate pricing
arrangement and contract type are used.




                                    23
Audit Response. Our audit showed that in 69 percent of the instances we
reviewed, where historical information was available on how a contractor
performed a service, the contracting officer did not consider that information
when determining contract type and continued use of either cost reimbursable or
T&M type contracts that placed unnecessary cost risks on the Government.
Historical information is a basic consideration for fixed-price contracts, and
because contracting officers often ignored that required basic consideration, even
when a contractor had performed essentially the same services for decades, shows
that a serious problem exists among contracting officers in selection of a contract
type. We request that the Acquisition Executives provide specific actions with
implementation dates on how they plan to place greater emphasis on the use of
fixed-price contracts.

       b. Establish and use centers of excellence in service contracting as
required by section 821(c) of the National Defense Authorization Act for
FY 2001 (Public Law 106-398).

Army Comments. The Deputy Assistant Secretary of the Army (Policy and
Procurement) concurred, stating that in November 2000, the Army directed major
commands to develop centers of excellence in service contracting in accordance
with section 821(c) of the National Defense Authorization Act for FY 2001.

Navy Comments. The Chief of Staff/Policy for the Deputy Assistant Secretary
of the Navy for Acquisition Management concurred, stating that the Navy Virtual
Center of Excellence for Services Contracting is scheduled to be fielded in the
first quarter of FY 2004.

Air Force Comments. The Associate Deputy Assistant Secretary of the Air
Force for Acquisition Integration concurred, stating that the Air Force is aware of
the problems identified in the report and has already started addressing them.

Defense Microelectronics Activity Comments. The Director, Defense
Microelectronics Activity concurred, stating that management will ensure that
personnel are familiar with and encourage the use of the Army’s centers of
excellence.
       c. Make program and contracting offices aware of any recurring
problems in the development of independent Government cost estimates,
technical evaluations, and price negotiation, and implement an enforcement
program that ensures those problems do not reoccur.

Army Comments. The Deputy Assistant Secretary of the Army (Policy and
Procurement) concurred, stating that the Army Procurement Management
Assistance Program provides assessment of the effectiveness and efficiency of
Army-wide procurement through outcome-based analysis. The Army believes
that the existing program accomplishes the goal of improving its effectiveness and
efficiency without establishment of a new enforcement program.

Navy Comments. The Chief of Staff/Policy for the Deputy Assistant Secretary
of the Navy for Acquisition Management partially concurred, stating that the
Navy Virtual Center of Excellence and the Navy Procurement Performance


                                    24
Management Assessment Program will allow contracting activities to evaluate the
quality of their contracting processes and know when corrective action is
appropriate. The Navy does not agree with establishing an enforcement program.

Air Force Comments. The Associate Deputy Assistant Secretary of the Air
Force for Acquisition Integration concurred, stating that the Air Force is aware of
the problems identified in the report and has already started addressing them.

Defense Microelectronics Activity Comments. The Director, Defense
Microelectronics Activity concurred, stating that their training in developing
Independent Government Cost Estimates, writing technical evaluations, and
completing price negotiation memorandums was updated and conducted in
March 2003.

       d. Develop and employ adequate management controls that ensure
service contracts are appropriately awarded and administered.

Army Comments. The Deputy Assistant Secretary of the Army (Policy and
Procurement) concurred, stating that the Army Management and Oversight of
Services process and its implementation are critical for ensuring that Army
acquisitions are properly awarded and administered.

Navy Comments. The Chief of Staff/Policy for the Deputy Assistant Secretary
of the Navy for Acquisition Management concurred in principle, stating the Navy
now has management controls in place that ensure appropriate award and
administration of services contracts.

Air Force Comments. The Associate Deputy Assistant Secretary of the Air
Force for Acquisition Integration concurred, stating that the Air Force is aware of
the problems identified in the report and has already started addressing them.

Defense Microelectronics Activity Comments. The Director, Defense
Microelectronics Activity nonconcurred, stating that the contracts identified in the
report were administered by either the Defense Contract Management Agency or
the Office of Naval Research in accordance with FAR Part 42. The procurement
contracting officer, administrative contracting officer, and project engineer serve
as a team in oversight of their assigned contracts. The cognizant administrative
contracting officer accomplishes the on-site surveillance and payment.

Audit Response. The Defense Microelectronics Activity comments are
nonresponsive. Administrative contracting officers have no control over the
award of contracts and the contracting activity can certainly institute controls that
ensure the administrative contracting officers accept delineated responsibilities
for contract administration. We request that the Director reconsider his position
and provide additional comments to the final report.




                                     25
Appendix A. Scope and Methodology
   Using the DD-350 [Individual Contracting Action Report] database, we
   judgmentally selected 113 contract actions awarded during FY 2000 and
   FY 2001. We used judgmental sampling to limit the number of sites visited and
   to ensure that we selected only contract actions valued at more than $250,000.
   The 113 contract actions included 69 contracts that had an estimated value of
   $17.8 billion and 44 task orders valued at $100.1 million issued from those
   contracts. We focused on three major service categories: Program
   Management/Support Services (Service Category Code R-408), Systems
   Engineering Services (Service Category Code R-414), and Engineering Technical
   Services (Service Category Code R-425). We performed this audit from
   August 2002 through August 2003 in accordance with generally accepted
   government auditing standards. Our audit included four steps:

   1. The first step determined if contracting officials attempted to use historical
   information to define requirements. For each contract action reviewed, we
   determined if historical information from other contracts was available. If
   historical information was available, we determined if contracting officials
   considered the information when they chose the contract type.

   2. The second step determined if contracting officials appropriately competed
   contracts. If contracting officials awarded a contract competitively and received
   multiple proposals, we determined if they considered price during the source
   selection process. If contracting officials awarded a contract competitively and
   received only one proposal, we determined if a realistic expectation that multiple
   bids would be received existed. If contracting officials awarded a contract on a
   noncompetitive basis, we evaluated the sole-source justification.

   3. The third step determined if contracting officials adequately supported their
   determinations that contract prices were fair and reasonable. For each contract
   action reviewed, we determined if the contract file included a certification that the
   price was fair and reasonable. We then determined if contracting officials
   adequately supported their certification that the price was fair and reasonable.
   4. The fourth step determined if contracting officials performed adequate
   surveillance on cost-reimbursement contracts. We focused on whether
   contracting officials used surveillance techniques that adequately ensured cost
   control. We determined if contracting officials had controls in place that would
   ensure contractors worked efficiently and ensured that contractors charged the
   Government only for actual allowable costs.

   We performed the steps by reviewing contract files and by interviewing
   contracting officials and program officials. We reviewed basic contracts, task
   orders, statements of work, PNMs, technical reviews, source selection documents,
   cost analyses, and miscellaneous correspondence.

   Limitations of Scope. We did not review the adequacy of contracting officials’
   price reasonableness determinations and surveillance measures for 23 contract



                                        26
    actions that were indefinite-delivery/indefinite quantity contracts because we
    performed this analysis when reviewing orders issued from those contracts.

    Our review of Government surveillance consisted of interviews of program office
    and contract administration office officials, whose names were provided to the
    audit team by contracting officials assigned to the contracts reviewed. We could
    verify that surveillance was adequate if we could meet with and examine
    surveillance files of the officials who performed the surveillance. Therefore, we
    could not determine the adequacy of surveillance in situations where interviews
    were performed by telephone or e-mail.

    Use of Computer-Processed Data. Although we relied on data retrieved from
    the DD-350 database during the audit, we did not evaluate the general and
    application controls relating to this information system that processes contract
    action reports. We used the DD-350 database as only a starting point to obtain
    the universe data and contract actions selected. Therefore, we did not evaluate
    the controls.

    General Accounting Office (GAO) High-Risk Area. The GAO has identified
    several high-risk areas in DoD. This report provides coverage of the high-risk
    area to “Improve processes and controls to reduce contract risk.”


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require that DoD organizations implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed
    management control procedures related to contract actions awarded for three
    major service categories: Program Management/Support Services (Service
    Category Code R-408), Systems Engineering Services (Service Category Code
    R-414), and Engineering Technical Services (Service Category Code R-425). We
    were concerned about whether contracting officials were following prescribed
    procedures for awarding and managing contracts for services. We specifically
    reviewed adequacy of the contract type, market research techniques, competition,
    price reasonableness determinations, and Government surveillance. We reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for the Military Departments and the Defense Microelectronics
    Activity as defined by DoD Instruction 5010.40. Military Departments and the
    Defense Microelectronics Activity management controls were inadequate for
    ensuring that requirements for contracts were defined and price reasonableness
    determinations were supported. Also, controls did not ensure that adequate
    surveillance was performed on contracts, particularly cost reimbursable and T&M
    type contracts. Recommendation 2.d., if implemented, will improve procedures


                                        27
that the Military Departments and Defense Microelectronics Activity use for
awarding and managing contracts. A copy of the report will be provided to the
senior official responsible for management controls within the Military
Departments and the Defense Microelectronics Activity.

Adequacy of Management’s Self-Evaluation. DoD contracting activities did
not identify contracts for services as an assessable unit and, therefore, did not
identify or report the material management control weaknesses identified by the
audit.




                                    28
Appendix B. Prior Coverage

    During the last 5 years, the GAO, the IG DoD, and the Army Audit Agency have
    issued 12 reports related to service contracts. Unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov/. Unrestricted IG DoD reports
    can be accessed at http://www.dodig.osd.mil/audit/reports.


GAO
    GAO Report No. GAO-03-935, “Contract Management: High-Level Attention
    Needed to Transform DoD Services Acquisition,” September 10, 2003

    GAO Report No. GAO-03-661, “Best Practices: Improved Knowledge of DoD
    Service Contracts Could Reveal Significant Savings,” June 9, 2003

    GAO Report No. GAO-02-1049, “Guidance Needed for Using
    Performance-Based Service Contracting,” September 23, 2002


IG DoD
    IG DoD Report No. D-2003-113, “Franchise Business Activity Contracts for
    Medical Services,” June 30, 2003

    IG DoD Report No. D-2003-099, “Service Contracts at the National Imagery and
    Mapping Agency,” June 6, 2003

    IG DoD Report No. D-2003-029, “Contract Actions Awarded To Small
    Businesses,” November 25, 2002

    IG DoD Report No. D-2001-189, “Multiple Award Contracts for Services,”
    September 30, 2001

    IG DoD Report No. D-2001-129, “Contracting Officer Determinations of Price
    Reasonableness When Cost or Pricing Data Were Not Obtained,” May 30, 2001

    IG DoD Report No. D-2001-102, “Service Contracts at the National Security
    Agency,” April 17, 2001 (Confidential)

    IG DoD Report No. D-2000-100, “Contracts for Professional, Administrative, and
    Management Support Services,” March 10, 2000

    IG DoD Report No. 99-116, “DoD Use of Multiple Award Task Order
    Contracts,” April 2, 1999




                                       29
Army
   Army Audit Agency Report No. A-2002-0580-AMA, “Managing Service
   Contracts,” September 23, 2002




                                 30
Appendix D. Status of Report No. D-2000-100
            Recommendations
    Report No. D-2000-100, “Contracts for Professional, Administrative, and
    Management Support Services,” was issued March 10, 2000. The following are
    recommendations from the report and actions taken in response to those
    recommendations or the status of planned actions.


Deputy Under Secretary of Defense (Acquisition Reform)
  Recommendations
    1. We recommend the Under Secretary:

           a. Develop a training course on planning and defining requirements
    and using historical contract for services data.

            b. Train contracting and program personnel on the award and
    administration of Professional, Administrative, and Management Support
    Services emphasizing future prevention of the types of deficiencies noted in
    this report.

    DoD issued a number of initiatives that provide additional guidance on how to
    “define, acquire, and manage service acquisitions.” They also developed a
    desktop Performance-Based Service Acquisition Guidebook. A commercially
    developed on-line training course for Performance-Based Service Acquisition was
    also developed and available.


Acquisition Executives Recommendations
    2. We recommend that Acquisition Executives for the Army, Navy, and Air
    Force:

           a. Make all acquisition personnel aware of the problems found in
    independent Government cost estimates, technical evaluations, and price
    negotiation memorandums.

    The Assistant Secretary of the Army (Acquisition, Technology, and Logistics)
    directed that the Procurement Management Assistance staff, the Principal
    Assistants Responsible for Contracting, and the U.S. Army Materiel Command
    Acquisition Reform Implementation Assessment Team add, as a special area of
    emphasis, the review of contracting procedures for Professional, Administrative,
    and Management Support Services.




                                       35
The Office of the Assistant Secretary of the Navy provided a copy of
Report No. D-2000-100 to the contracting activities.

The Secretary of the Air Force distributed a memorandum explaining the need for
“greater diligence in each of the cited areas.”

       b. Evaluate the seven contracts identified that should have been
awarded as multiple-award contracts in accordance with the Federal
Acquisition Regulation and if feasible, terminate or convert them to
multiple-award contracts upon completion.

The Army reviewed the Army contract identified and determined that all actions
were completed.

The Navy reviewed the six Navy contracts identified and determined that
termination was not appropriate.

       c. Establish centers of excellence with personnel that have performed
research and received training to become expert buyers of Professional,
Administrative, and Management Support Services.

The Army used each of the Major Army Commands to develop one or more of
the centers of excellence. The centers are, however, subject to major revisions as
a result of the establishment of the Army Contracting Agency.

The Navy is exploring consortiums and a virtual center of excellence. However,
the action was delayed as a result of technology infrastructure changes and a
departmental reorganization.

The Policy and Implementation Division of the Deputy Assistant Secretary of the
Air Force (Contracting) is serving as the Air Force Center of Excellence for
service contracting.

     d. Require personnel acquiring the Professional, Administrative, and
Management Support Services to:
               1. Use the centers of excellence.

The Army centers of excellence are subject to major revisions as a result of
establishment of the Army Contracting Agency.

The Navy will direct its acquisition community to use the virtual center of
excellence when it is deployed. However, as a result of technology infrastructure
changes, deployment of the virtual center of excellence was delayed.

The Air Force believes that the mandate is unnecessary and impossible to enforce.
However, they stated their intent was to provide a useful Web site that would
become the resource of choice for contracting personnel in the field. In addition,
training on service contracts was integrated into several annual functional training
courses.



                                    36
             2. Establish a time-phased plan with goals and performance
measures that require the review of all Professional, Administrative, and
Management Support Services contracts.

Office of the Assistant Secretary of the Army Acquisition Logistics and
Technology representatives conduct visits to Army contracting offices and survey
cost-type contracts as well as advise contracting offices to convert cost-type
contracts to firm-fixed-price whenever possible.

The Navy distributed a memorandum encouraging the acquisition community to
review the report and ensure that concerns are addressed in planning and
awarding contracts. Furthermore, the Navy will review procurement history and
fixed-price service requirements to the maximum extent possible. Follow-on
contracts for existing contracts will be reviewed within the 5-year cycle.

The Air Force partially concurred with the recommendation and did not intend to
review all contracts. Instead, they did the following:

        a. Issued a memorandum to the Directors for Contracting at the Centers
outlining the Directors’ responsibilities for training and self-inspection;

       b. Developed a special interest item checklist for the Office of Inspector
General of the Air Force Materiel Command to use in monitoring compliance
with service contract requirements outlined in Air Force Instruction 63-124,
“Performance-Based Service Contracts (PBSC),” April 1, 1999, at the reviewed
Centers;

       c. Held detailed discussions at two reviews at the executive director level
on IG DoD findings and corrective actions; and

        d. Required that Centers develop plans for correcting deficiencies and
increasing the robustness of the process for acquiring services.

             3. Convert, over 3 to 5 years, those repetitive cost
reimbursable contracts, or portions of contracts, to fixed price.
The Army strongly encourages migration of cost-type contracts to
firm-fixed-price contracts and has reemphasized that policy to field contracting
organizations. However, the Army will not direct that contracting officers award
firm-fixed-price contracts because the contract type is a judgment call made by
the contracting officer.

The Navy reviews acquisitions for supplies or services with the intent of selecting
the most appropriate type of contract based on specific circumstances for the
requirement. A field memorandum that encourages contract personnel to review
available procurement history and use fixed-price contracts to the maximum
extent possible was distributed.

The Air Force distributed an electronic memorandum to the Air Force senior
leadership in contracting that identifies concerns on the use of long-term cost
reimbursable contracts. The memorandum stresses that careful consideration is


                                    37
given to converting the contracts to fixed price. In addition, the Secretary of the
Air Force (Acquisition) conducted a Performance-Based Service Acquisition
training program designed to reach contracting activities and a variety of
functional communities that create requirements and acquire service contracts.

               4. Review the assignment of contract surveillance work for
contracts for services and adjust assigned workload and staffing to resolve
imbalances.

The Army established the Army Contracting Agency. The Army has maintained,
however, over the last couple of years that it does not have the resources to
accomplish the contract surveillance work needed for the service contracts it
awards.

The Navy constantly reviews staffing and work assignments with the goal of
matching resources with requirements. They also have new and ongoing
initiatives that will increase use of performance-based contracting principles and
establish a greater reliance of past performance information in source selection
that should reduce the need for surveillance. The Navy distributed a field
memorandum that encourages acquisition personnel to review
Report No. D-2000-100 and to ensure that the planning for, as well as award and
administration of, service contracts are appropriately addressed.

The Air Force believes this is an installation-level issue. Air Force
Instruction 63-124, “Performance-Based Service Contracts (PBSC),” April 1,
1999, already requires contract surveillance as one of the key management duties
of the installation Performance Management Council to provide synergy in
addressing installation issues.

       e. Develop and implement work measures on contracts for
Professional, Administrative, and Management Support Services, and
measure improvements through the options, modifications for additional
work, and future contracts.

The Army issued a letter encouraging that migration occur when sufficient
procurement history exists. The Army also established centers of excellence and
emphasized, through procurement management assistance visits, methods for
improving performance standards.

The Navy stated that to ensure consistency such work measures should be
developed at the DoD level.

The Air Force is spreading Performance Based Service Acquisition policy and
implementation throughout the various functional and acquisition communities in
the Air Force. The Air Force is conducting a Services Acquisition Road Show
that details the policy and elements of service contract-related issues.




                                     38
Appendix E. Summary of Recent Statutory and
            DoD Guidance on Service Contracts
   From FY 1992 to FY 2002, DoD expenditures for services steadily increased.
   Legislation enacted from FY 2001 through FY 2003 specifically addresses
   acquisition of services. The legislation addresses establishment and use of centers
   of excellence that specialize in services, training for service contracting,
   establishment and implementation of a management structure for the procurement
   of services, achievement of efficiencies in the procurement of services before
   awarding multiple-award contracts through the use of performance-based services
   contracting, and competition for task orders under service contracts.
   National Defense Authorization Act for FY 2001. The National Defense
   Authorization Act for FY 2001 (Public Law 106-398), October 30, 2000,
   section 821(c), “Centers of Excellence in Service Contracting,” required that not
   later than 180 days after the date of the enactment of this Act, the Secretary of
   each Military Department shall establish at least one center of excellence in
   contracting for services. Each center of excellence shall assist the acquisition
   community by identifying, and serving as a clearinghouse, the best practices in
   contracting for services in both the public and private sectors.

   Section 821(d), “Enhanced Training in Service Contracting,” required that the
   Secretary of Defense ensure classes focusing specifically on contracting for
   services are offered by the Defense Acquisition University and the Defense
   Systems Management College and are available to contracting personnel
   throughout DoD. In addition, Congress directed that the Secretary of each
   Military Department and the head of each Defense agency ensure that the
   personnel of each department or agency responsible for awarding and managing
   contracts for services receive appropriate training focused specifically on
   contracting for services.

   National Defense Authorization Act for FY 2002. The National Defense
   Authorization Act for FY 2002 (Public Law 107-107), December 28, 2001,
   section 801(b), “Requirement for Management Structure,” required that the
   Secretary of Defense establish and implement a management structure for the
   procurement of services for DoD. The management structure would require a
   designated official for each Military Department, Defense agency, and DoD
   Component. The designated official would be responsible for managing the
   procurement of services and developing a way in which employees in Military
   Departments, Defense agencies, and DoD Components can be held accountable
   for carrying out the requirements for the procurement of services, and
   establishment of specific dollar thresholds and other criteria for advance
   approvals of purchases. The Secretary of Defense was required to establish and
   implement the management structure no later than 180 days after the enactment of
   the Act. Also, the Under Secretary of Defense for Acquisition, Technology, and
   Logistics was required to issue management structure guidance to officials on
   how to carry out their responsibilities. As reported in GAO Report No. GAO-03-
   935:



                                       39
“Contract Management: High-Level Attention Needed to Transform DoD
Services Acquisition,” September 10, 2003, DoD had not issued such guidance as
of September 2003.

Section 802(a), “Savings Goals for Procurements of Services,” required that DoD
establish savings goals through the use of improved management practices for
procurements of services, including performance-based services contracting;
competition for task orders under service contracts; and program review,
spending analyses, and improved management of services contracts.

Section 802(b), “Annual Report,” established that the Secretary of Defense must
submit a progress report to the congressional Defense committees no later than
March 1, 2002, and then annually through March 1, 2006. The report should
show the progress made toward meeting the objective and goals established for
savings of procurements of services. Each report should at a minimum include
the following:

       (1) a summary of steps that would improve the management of
           procurements of services in the fiscal year of the report and the
           following fiscal year,

       (2) an estimate of the expenditures for procurements of services in the
           fiscal year of the report and the following fiscal year, and

       (3) an estimate of savings as a result of improvement of management
           practices for the procurement of services in the fiscal year of the report
           and in the following fiscal year.

Section 803, “Competition Requirement for Purchase of Services Pursuant to
Multiple Award Contracts,” required that not later than 180 days after the date of
the enactment of the Act, the Secretary of Defense should publicize in the DoD
Supplement to the FAR regulations that would require competition when
purchasing services by DoD before awarding multiple-award contracts. The
regulations would require that each individual purchase of services in excess of
$100,000 prepared under a multiple-award contract should be made on a
competitive basis. A DoD contracting officer can waive the requirement under
certain conditions.

National Defense Authorization Act for FY 2003. The National Defense
Authorization Act for FY 2003 (Public Law 107-314), December 2, 2002,
section 805, “Performance Goals for Procuring Services Pursuant to Multiple
Award Contracts,” amended subsection (a) of section 802 of the National Defense
Authorization Act for FY 2002. The DoD objective should now be to achieve
efficiencies in procurements of services before awarding multiple-award contracts
through the use of performance-based services contracting; competition for task
orders under service contracts; and program review, spending analyses, and
improved management of services contracts. Therefore, DoD should have the
following goals for procurement of services made under multiple-award contracts:
increase the percentage of purchases of services made under a competitive basis




                                    40
where more than one offer is obtained from qualified contractors and increase the
percentage of purchases of services specifying firm-fixed prices for specific tasks
performed on the contract.

Performance-Based Service Acquisition Plan, April 2000. The Under
Secretary of Defense for Acquisition, Technology, and Logistics issued a
memorandum on April 5, 2000. The memorandum states that DoD policy
emphasizes maximized performance, innovation, and competition as well as the
use of performance-based strategies for the acquisition of services whenever
possible. The Under Secretary of Defense for Acquisition, Technology, and
Logistics established that a minimum of 50 percent of service acquisitions by the
year 2005 should be performance-based. To achieve the goal, the Military
Departments and the Defense Logistics Agency should develop an acquisition
implementation plan for performance-based services that would increase the use
of acquisition strategies no later than 60 days from the date of the memorandum.
The memorandum also discusses the importance of training for increasing
performance-based acquisition for services. The National Association of
Purchasing Management and the National Contract Management Association
have developed a Performance-Based Services Acquisition course. The relevant
personnel are required to take within 12 months of the memorandum that
particular course or an equivalent performance-based services acquisition training
course.

Guidebook for Performance-Based Services Acquisition, December 2000.
The Under Secretary of Defense for Acquisition, Technology, and Logistics
issued a memorandum dated January 2, 2001. In the memorandum, the Under
Secretary states that DoD developed a guidebook for performance-based services
acquisition to provide a better understanding of the basic principles of
performance-based services acquisition. The guidebook was designed to promote
performance-based strategies for services acquisitions; educate acquisition
workforce on performance-based services acquisition; encourage innovative
business practices; promote the use of the commercial market place; and increase
awareness that performance-based services acquisitions require participation from
the users, acquisition workforce personnel, and industry to ensure that the
requirement is met.
Integrated Process Team, January 2001. The Under Secretary of Defense for
Acquisition, Technology, and Logistics issued a memorandum dated January 5,
2001. The memorandum states that to ensure high quality in the acquisition of
services, the Under Secretary would establish an ongoing Integrated Process
Team. The team would focus on identifying best practices, developing guidance,
reviewing training, and identifying additional policy needs for performance-based
service acquisitions. DoD used the Integrated Process Team results to develop
current service acquisition policy.

Services Contracts Oversight Process, May 2002. The Under Secretary of
Defense for Acquisition, Technology, and Logistics issued a memorandum dated
May 31, 2002. In the memorandum, the Under Secretary states that section 801
through section 803 of the National Defense Authorization Act for FY 2002
established requirements that would affect DoD acquisition of services.
Therefore, within 60 days of the date of the memorandum, each of the Military


                                    41
Departments was directed to propose a Services Contracts Oversight Process.
The Services Contracts Oversight Process is a process and a set of procedures for
managing and overseeing the acquisition of service acquisitions. DoD used the
responses to this memorandum to develop new policy as stated in the
August 2003 performance based service acquisitions memorandum.

Performance-Based Service Acquisitions, August 2003. The Under Secretary
of Defense for Acquisition, Technology, and Logistics issued a memorandum
dated August 19, 2003, that updates goals for performance-based service
acquisitions. The current goals for the use of performance-based service
acquisitions are:

              FY 2003                25 percent of dollars awarded
              FY 2004                35 percent of dollars awarded
              FY 2005                50 percent of dollars awarded

Measurement against the above goals will be based solely on the percentage of
contract dollars awarded using performance-based service acquisitions, excluding
services the Office of Federal Procurement Policy identified as not particularly
well suited to performance-based service acquisitions. In addition, the
memorandum encourages the use of statements of objectives and provides a goal
to train all personnel who prepare statements of work appropriate training on
preparing performance-based statements of work by September 30, 2005.

GAO Report No. GAO-03-935: “Contract Management: High-Level
Attention Needed to Transform DoD Services Acquisition,” September 10,
2003. As mandated by the National Defense Authorization Act for FY 2002,
GAO assessed DoD compliance with the requirements of Public Law 107-107,
section 801. The GAO concluded that DoD does not have a plan for a DoD-wide
assessment of how spending for services could be more effective. The GAO
reported that DoD lacks a plan that both coordinates each of the Military
Department’s on-going initiatives and provides a road map for future efforts. The
GAO recommended that DoD strengthen its contracting management structure for
services to promote use of best practices such as centralizing key functions,
conducting spend analyses, using commodity teams, achieving strategic
orientation, reducing purchasing costs, and improving performance.




                                    42
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Education, Training, and Career Development
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Microelectronics Activity

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Office of Federal Procurement Policy




                                          43
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        44
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                       45
46
47
Department of the Army Comments




                    48
49
.




50
Department of the Navy Comments




                    51
52
53
Department of the Air Force Comments




                     54
55
Defense Microelectronics Activity Comments




                      56
57
58
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
Terry L. McKinney
Timothy E. Moore
Robert E. Bender
Steven I. Case
Cheryl L. Snyder
David P. Goodykoontz
Karen A. Ulatowski
Elizabeth M. Baarlaer
Sharon L. Carvalho
